SEC.gov |  Survey of Reported Management Control Weaknesses
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Survey of Reported Management Control Weaknesses
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
MEMORANDUM
TO:Honorable Arthur Levitt,Chairman
FROM:Walter StachnikInspector General
SUBJECT:Survey of Reported Management Control Weaknesses
DATE:September 9, 1996
Introduction
At your request, we surveyed the progress made
this year in addressing the six management control weaknesses reported
in your December 29, 1995 certification letter to the President and Congress.
We conducted interviews and gathered documentation, but did not perform
detailed testing.
Our survey results are described below. For each
weakness, we describe corrective actions taken to date and corrective actions
planned. Management estimates that by the end of calendar year (CY) 1996,1
corrective actions for four weaknesses will be complete, while those for
the other two will be in progress.
ADP Security: In Progress at the
End of CY 1996
The Commission is receiving assistance from the
National Security Agency in developing security policies and procedures.
Management expects to issue guidance in phases, with summary guidance to
be issued first, by year end. Detailed guidance will follow. Completion
of the phase-in of detailed guidance will not occur until after the end
of calendar year 1996, as will implementation of an ADP security review
program and certification of automated systems.
EDGAR Disaster Recovery: Scheduled
for Completion in CY 1996
The Commission has acquired computer equipment
to maintain continuity of its Electronic Data Gathering, Analysis, and
Retrieval (EDGAR) operations in the event of a disaster. Management indicated
that a contractor will install and test the equipment at headquarters by
the end of this calendar year.
Transaction Fees: Scheduled for
Completion in CY 1996
The Division of Market Regulation and the Office
of Economic Analysis have submitted plans to assess the reasonableness
of reported market values on which transaction fees are based; to monitor
transaction reporting; and to assure that all brokers have reported transactions
and remitted fees due. The Office of the Executive Director expects to
review and approve the plans by the end of this calendar year. Also, a
related computer interface problem is scheduled to be corrected by then.
Filing Fees: In Progress at the
End of CY 1996
Improvements to many management controls over filing
fees (including separation of duties and audit trails) have already been
implemented. Additionally, a contract to develop a new filing fee automated
system is scheduled to be awarded by the end of this calendar year, with
the new system to be implemented in 1997.
Disgorgements: Scheduled for Completion
in CY 1996
A contractor was issued a purchase order to provide
the Office of the Comptroller and the Division of Enforcement with inquiry
access to the Disgorgement Payments Tracking System (DPTS). The contractor
is also enhancing the DPTS to provide the Comptroller's Office with needed
information. In addition, the Office of the Secretary is making arrangements
with the Division of Enforcement to provide the Office of the Secretary
with information on settlements in a more uniform format. These corrective
actions are scheduled to be completed by the end of this calendar year.
Access Restrictions: Scheduled
for Completion in CY 1996
Action has already been taken to reduce unnecessary
access to application program libraries, to improve password protection,
and to monitor mainframe access rights. The only remaining corrective action
is the issuance of ADP security guidance. Since security guidance is included
as part of the material weakness "ADP Security" discussed above, the corrective
actions relating to "Access Restrictions" can be reported as corrected.
cc:
Mike Bartell
Wilson Butler
Diane Campbell
James Donahue
Henry Hoffman
Jonathan Katz
Richard Lindsey
James McConnell
William McLucas
Darlene Pryor
Lori Richards
Michael Schlein
Erik Sirri
Richard Walker
Endnote
1The due date for the 1996 certification letter.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us